                SUMMARY REPORT ON DOD
             HAZARDOUS WASTE DISPOSAL COSTS


Report No. D-2001-025               December 22, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
CY                    Calendar Year
DLA                   Defense Logistics Agency
MoM                   Measure of Merit
                        Office of the Inspector General, DoD
Report No. D-2001-025                                                 December 22, 2000
   (Project No. D1999CK-0061.001)

        Summary Report on DoD Hazardous Waste Disposal Costs

                                    Executive Summary

Introduction. This audit was jointly conducted by the Inspector General, DoD, and the
Army, Navy and Air Force audit agencies. The audit was performed in response to a
request from the Office of the Deputy Under Secretary of Defense (Environmental
Security) to review costs, volumes, and the budget formulation and review process
related to DoD hazardous waste disposal. The Inspector General, DoD, issued a previous
report with a recommendation to the Defense Logistics Agency. The Army Audit
Agency issued a report with recommendations to the Department of the Army. The
Naval Audit Service and the Air Force Audit Agency issued reports without
recommendations to their respective Services. This report summarizes and discusses
hazardous waste disposal cost budgeting, execution, and measure of merit reporting at the
Army, Navy, and Air Force, as well as the Defense Logistics Agency.

For the measure of merit on hazardous waste disposal, DoD reported a calendar
year 1992 baseline figure of about 409 million pounds of hazardous waste and in calendar
year 1998 reported about 208 million pounds. As of November 1998, when the audit was
initiated, the DoD budget for hazardous waste disposal had increased from $211 million
(actual cost) for FY 1997 to $224 million (budgeted amount) for FY 1999.

Objectives. The overall audit objective was to determine why DoD hazardous waste
disposal budgets had increased while the reported unit cost to dispose of hazardous waste
and the reported amount of hazardous waste had decreased. In addition, we evaluated the
budget formulation and review process related to DoD hazardous waste disposal.

Results. The reported unit cost to dispose of hazardous waste could not be validated. In
addition, we were unable to determine causal factors in program trends because the
Army, Air Force, and Defense Logistics Agency cost and volume estimates were poorly
supported.

As a result, the DoD “Environmental Compliance, Recurring Costs” portion of the budget
did not accurately reflect anticipated costs to dispose of hazardous waste in the Army, Air
Force, and Defense Logistics Agency. In addition, Army, Air Force, and Defense
Logistics Agency measure of merit data did not accurately reflect the actual progress
toward meeting the established goals of reducing hazardous waste by calendar year 1999,
and that raises questions as to the accuracy of the hazardous waste reduction metric
within DoD. The principal cause of these problems was inadequate guidance. For details
of the audit results, see the Finding section of the report. See Appendix A for details on
management controls.

Summary of Recommendations. We recommend that the Deputy Under Secretary of
Defense (Environmental Security) issue uniform policy to the Services and Defense
Logistics Agency to use in preparing “Environmental Compliance, Recurring Costs”
budget estimates; revise the DoD measure of merit definition for hazardous waste
disposal; and issue uniform policy to the Services and the Defense Logistics Agency to
use in preparing future measure of merit submissions for hazardous waste disposal. We
recommend that the Army, Air Force, and Defense Logistics Agency develop policies for
hazardous waste disposal record keeping and retain the records to document that measure
of merit goals were achieved.

Management Comments. The Army concurred, stating they have developed draft
policies for hazardous waste disposal record keeping and on requirements for record
retention. The Air Force concurred and recommended that the Office of the Under
Secretary of Defense (Environmental Security) measure of merit committee prepare
guidance on record retention of baseline data. The Defense Logistics Agency concurred
and stated they will issue policy. A discussion of management comments is in the
Finding section of the report, and the complete text is in the Management Comments
section.

Audit Response. The Deputy Under Secretary of Defense for Environmental Security
did not comment on a draft of this report. The Air Force suggestion that there be
DoD-wide policy on retaining hazardous waste disposal baseline data is constructive, but
we believe that the Air Force should take interim measures. We request that the Deputy
Under Secretary provide comments on the final report and that the Air Force provide
additional comments identifying actions to develop policy for hazardous waste disposal
record keeping by February 22, 2001.




                                             ii
Table of Contents

Executive Summary                                                    i


Introduction
     Background                                                     1
     Objectives                                                     2

Finding
     DoD Hazardous Waste Budgeting and Measure of Merit Reporting    3

Appendixes
     A. Audit Process
           Scope and Methodology                                     8
           Management Controls                                       9
     B. Prior Coverage                                              10
     C. Report Distribution                                         11

Management Comments
     Department of the Army                                         13
     Department of the Air Force                                    15
     Defense Logistics Agency                                       16
Background
    This audit was jointly conducted by the Inspector General, DoD, and the Army,
    Navy, and Air Force audit agencies. The audit was performed in response to a
    request from the Deputy Under Secretary of Defense (Environmental Security),
    hereafter referred to as DoD Environmental Security, to review the costs,
    volumes, and the budget formulation and review process related to DoD
    hazardous waste disposal. The Inspector General, DoD, issued a report with a
    recommendation to the Defense Logistics Agency (DLA). The Army Audit
    Agency issued a report with recommendations to the Department of the Army.
    The Naval Audit Service and the Air Force Audit Agency issued reports without
    recommendations to their respective Services. This report summarizes and
    discusses hazardous waste disposal cost budgeting and execution, and measure of
    merit reporting at the Army, Navy, Air Force, and DLA.

    Hazardous Waste Measure of Merit. Hazardous waste is material that no
    longer serves a useful purpose and demonstrates characteristics of ignitability,
    corrosivity, reactivity, toxicity, or is listed as hazardous by the Environmental
    Protection Agency. The Resource Conservation and Recovery Act of 1976
    regulates Federal, State, and local government facilities that generate, transport,
    treat, store, or dispose of hazardous waste.

    The Department of Defense has implemented policies to reduce the volume of
    hazardous waste. Executive Order 12856, as implemented by DoD Instruction
    4715.4, “Pollution Prevention,” June 18, 1996, established a pollution prevention
    measure of merit (MoM) for hazardous waste disposal. DoD Components were to
    reduce the disposal of hazardous waste by 50 percent from the 1992 baseline by
    the end of calendar year (CY) 1999. The DoD Environmental Security office
    provided the following definition of hazardous waste to be included in the MoM
    submission.
               Include all manifested hazardous waste, as currently defined by EPA
               under the Solid Waste Disposal Act, but not limited to, wastes
               associated with spills, tank cleaning, bilge water, BRAC activities,
               deployments, and off site disposal, treatment, recycling, and
               incineration activities. Exceptions: do not include hazardous wastes
               associated with, CERCLA [Comprehensive Environmental Response,
               Compensation, and Liability Act] or RCRA [Resource Conservation
               and Recovery Act] cleanup activities.

    The DoD reported a CY 1992 baseline figure of about 409 million pounds of
    hazardous waste and in CY 1998 reported about 208 million pounds. The
    Services and DLA summarize their MoM data and submit it to the DoD
    Environmental Security office. The MoM data is further summarized and
    incorporated into the Defense Environmental Quality Program Annual Report to
    Congress.

    Budgeting for Hazardous Waste Disposal. The DoD Environmental Security
    office was concerned about the DoD hazardous waste disposal budget and
    hazardous waste reporting requirements. Specifically, the DoD Environmental


                                            1
     Security office wanted to ensure that budgets for DoD Components reflected
     realistic amounts, noting the significant reductions in the volume of hazardous
     waste (as reported in the MoM) and the reported unit cost of hazardous waste
     disposal.

     The Services and DLA reflect anticipated hazardous waste recurring costs in the
     “Environmental Compliance, Recurring Costs” budget submission. The Services
     and DLA Comptrollers submit budget estimates to the DoD Comptroller for
     inclusion in the President’s budget request. The budgetary data is also submitted
     to the DoD Environmental Security office for review. As of November 1998, the
     DoD budget for hazardous waste disposal had increased from $211 million (actual
     cost) for FY 1997 to $224 million (budgeted amount) for FY 1999.

Objectives
     The overall audit objective was to determine why DoD hazardous waste disposal
     budgets had increased while the reported unit cost to dispose of hazardous waste
     and the reported amount of hazardous waste had decreased. In addition, we
     evaluated the budget formulation and review process related to DoD hazardous
     waste disposal. See Appendix A for a discussion of the audit scope and
     methodology and Appendix B for a summary of prior coverage.




                                          2
                    DoD Hazardous Waste Budgeting and
                    Measure of Merit Reporting
           The Army, Air Force, and DLA hazardous waste disposal budget estimates and
           MoM data reported to the DoD Environmental Security office were poorly
           supported. The Army, Air Force, and DLA did not use reliable execution data to
           estimate hazardous waste disposal costs and report hazardous waste disposal
           volumes. In addition, the DoD Environmental Security office did not provide
           adequate guidance on compiling budget requirements or for reportable volumes of
           hazardous waste disposal. As a result, the DoD “Environmental Compliance,
           Recurring Costs” portion of the budget did not accurately reflect anticipated costs
           to dispose of hazardous waste in the Army, Air Force, and DLA. In addition,
           Army, Air Force, and DLA MoM data did not accurately reflect the progress
           toward meeting established goals of reducing hazardous waste by CY 1999,
           which raises questions as to the accuracy of the hazardous waste reduction metric
           within DoD.

DoD Hazardous Waste Disposal Budget
           The DoD hazardous waste disposal budget for FY 1998, $221.3 million, was
           marginally higher than the FY 1997 actual cost, $220.6 million.∗ The budget
           increased to $223.7 million for FY 1999 and decreased to $207.5 million for
           FY 2000. At the end of the audit we obtained the actual costs reported to the DoD
           Environmental Security office for hazardous waste disposal. The reported DoD
           actual costs for hazardous waste disposal decreased from $306.8 million in
           FY 1996 to $124.1 million in FY 1999. However, we could not verify the
           program value because there was no support for historical costs. The following
           figure summarizes the hazardous waste disposal budget and actual costs for the
           DoD.




∗
    The FY 1997 actual cost is different than the FY 1997 actual cost in the background section of the report.
    The cost used in the background section was obtained from the DoD Environmental Security office at the
    beginning of the audit. The cost used here was obtained at the end of the audit and is different because of
    adjustments.



                                                        3
                                    DoD Hazardous Waste Disposal Budget
                                                  Constant Dollars
                     $350
                     $300
                     $250
       in Millions




                     $200
                     $150
                     $100
                     $50
                      $0
                            FY 96         FY 97            FY 98            FY 99   FY 00
                                                      Budgeted     Actual




    The values in the figure were derived from three different sources. Actual costs
    were obtained from the Defense Environmental Quality Program FY 1999 Annual
    Report to Congress. The FY 1998 and FY 1999 budgeted costs were obtained
    from the DoD Environmental Security office. The FY 2000 budgeted cost was
    obtained from the Defense Environmental Quality Program FY 1998 Annual
    Report to Congress.

Hazardous Waste Budgetary Data
    The Army, Air Force, and DLA hazardous waste disposal budget estimates were
    unsupportable because of the unreliability or lack of historical cost data available
    for budget formulation. In addition, the DoD Environmental Security office did
    not provide sufficient guidance to ensure that the hazardous waste disposal budget
    submission reflected the program execution experience of those components. The
    Naval Audit Service found, in contrast, that the Navy budget estimates were
    supported by historical costs.

    Hazardous Waste Budgetary Preparation. The Army’s budgeted amounts
    were questionable because installations and components of two major commands
    did not budget for compliance funding for hazardous waste disposal. In addition,
    the Army did not adequately capture actual costs for hazardous waste disposal in
    their accounting systems. The Air Force hazardous waste disposal budget could
    not be validated because of lack of documentation. The DLA components were
    unable to provide historical cost data to support their hazardous waste budget
    estimates. In addition, the DLA 1997 budget included $78 million in hazardous
    waste disposal costs that were already budgeted by the Services. According to the
    Naval Audit Service, however, the Navy prepared budgets based on reliable
    historical cost data that provided sufficient funding to process hazardous waste
    produced.


                                                      4
    Program Guidance for Hazardous Waste Budget Preparation. The Army, Air
    Force, and DLA submitted hazardous waste disposal budget estimates that were
    unsupportable and were not challenged by the DoD Environmental Security
    office. The DoD Environmental Security office did not provide adequate
    guidance to assist the Services and DLA in preparing “Environmental
    Compliance, Recurring Costs” budget estimates. In addition, the DoD
    Environmental Security office did not include a definition for hazardous waste
    disposal in the Program Objective Memorandum Preparation Instruction,
    “Environmental Compliance” budget format. The inadequate guidance resulted
    in hazardous waste disposal budget submissions from Army, Air Force, and DLA
    organizations that did not reflect realistic estimates of the costs to dispose of
    hazardous waste within their organizations. The DoD Environmental Security
    office needs to issue uniform policy for preparing “Environmental Compliance,
    Recurring Costs” budget estimates.

Measure of Merit Reporting Data
    The Army, Air Force, and DLA hazardous waste MoM data was not supportable
    because the underlying data on hazardous waste disposal volumes was not
    reliable. In addition, the DoD Environmental Security office did not perform
    sufficient guidance of the MoM reporting process. The Navy MoM submissions
    were derived from standardized activity reports and were deemed valid by the
    Naval Audit Service.

    MoM Reporting. The Army, Air Force, and DLA reported MoM data for
    hazardous waste disposal that were not supportable. Frequent changes in the
    Army reporting definition affected the hazardous waste volumes reported by the
    Army. In addition, the Army required installations and organizations to report
    MoM data using three different tracking systems, which did not have clear and
    consistent reporting definitions. Also, the Army lacked documentation to support
    the reported disposal volumes for any year. The Air Force MoM submissions for
    hazardous waste disposal could not be verified because of a lack of baseline year
    documentation and other inconsistencies. The Air Force MoM reporting criteria
    for CY 1997 varied at the four organizations visited. For example, one
    installation reported only Resource Conservation and Recovery Act waste, while
    another installation included non-Resource Conservation and Recovery Act waste
    in the MoM data. DLA could not provide adequate supporting documentation for
    the MoM data for each of the reporting periods. In addition, the DLA
    organizations used CY 1994 as the baseline year instead of CY 1992. MoM
    submissions by the Navy were accurate and reliable according to the Naval Audit
    Service. The Navy installations annually report hazardous waste disposal
    volumes and costs to the Naval Facilities Engineering Service Center, Port
    Hueneme, California. The Naval Facilities Engineering Service Center gathered
    data for hazardous waste disposal, screened data, organized data, prepared reports
    using the data, and archived data.

    DoD Environmental Security Office Guidance for MoM Preparation. The
    DoD Environmental Security office needed to improve the guidance for preparing
    MoM submissions. During the audit, the DoD Environmental Security office was
    working on revising the compliance measures of performance and finalizing the


                                        5
    new metrics. They planned to include a new MoM goal for hazardous waste
    reduction. The DoD Environmental Security office needs to clarify the hazardous
    waste disposal MoM definition, and issue uniform policy to the Services and
    DLA to use in preparing future MoM submissions for hazardous waste disposal.
    The Army, Air Force, and DLA need to improve their hazardous waste disposal
    record keeping and retain the records so that historical data can be verified for the
    new hazardous waste MoM.

Summary
    The Army, Air Force, and DLA hazardous waste disposal budget estimates and
    MoM data for hazardous waste disposal volumes reported to the DoD
    Environmental Security office were not supportable. As a result, the DoD
    “Environmental Compliance, Recurring Costs” portion of the budget did not
    accurately reflect anticipated costs to dispose of hazardous waste in the Army, Air
    Force, and DLA. In addition, Army, Air Force, and DLA MoM data did not
    accurately reflect the progress toward meeting the established 50 percent
    reduction of hazardous waste by CY 1999, which raises questions as to the
    accuracy of the hazardous waste reduction metric within DoD.

Recommendations, Management Comments, and Audit
Response
    1. We recommend that the Deputy Under Secretary of Defense
    (Environmental Security):

               a. Issue uniform policy to the Services and the Defense Logistics
    Agency to use in preparing “Environmental Compliance, Recurring Costs”
    budget estimates. Include a hazardous waste disposal definition in the policy
    that is consistent with the measure of merit definition for hazardous waste
    disposal.
              b. Revise the DoD measure of merit definition for hazardous
    waste disposal to be more specific as to the types of hazardous waste to
    include. Coordinate this effort with the Services, Defense Logistics Agency,
    and the Office of the Secretary of Defense Comptroller.

               c. Issue uniform policy to the Services and the Defense Logistics
    Agency to ensure comparability and consistency in preparing future measure
    of merit submissions for hazardous waste disposal.

    Management Comments. The Deputy Under Secretary of Defense
    (Environmental Security) did not comment on the recommendation. We request
    that the Deputy Under Secretary provide comments to the final report.

    2. We recommend that the Army Assistant Chief of Staff for Installation
    Management develop policy for hazardous waste disposal record keeping
    and retain the records so that historical data can be verified.


                                          6
Management Comments. The Army concurred and stated that they have
developed draft policy for hazardous waste disposal record keeping by requiring
that a single source data collection system be used for hazardous waste reporting.
The Army said they have also developed draft policy that elaborates on
requirements for record retention. The Army plans to complete and implement
final policy changes by March 2001.

3. We recommend that the Air Force Deputy Chief of Staff Installations and
Logistics develop policy for hazardous waste disposal record keeping and
retain the records so that historical data can be verified.

Management Comments. The Air Force concurred and stated that there is a
policy void specific to hazardous waste disposal record retention. The Air Force
recommended that the Office of the Under Secretary of Defense (Environmental
Security) Measure of Merit Committee prepare guidance on record retention of
baseline data.

Audit Response. Although the Air Force concurred, the Air Force comments are
nonresponsive. Whether or not the Office of the Under Secretary Defense
(Environmental Security) issues guidance on hazardous waste disposal record
retention of baseline data, the Air Force should develop policy for hazardous
waste disposal record keeping to ensure that historical data can be verified. We
request that the Air Force reconsider its position on developing policy for
hazardous waste disposal record keeping and provide additional comments when
responding to the final report.

4. We recommend that the Director, Defense Logistics Agency develop
policy for hazardous waste disposal record keeping and retain the records so
that historical data can be verified.

Management Comments. The Defense Logistics Agency concurred and stated
they expect to issue policy by December 30, 2000.




                                     7
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We discussed the audit objectives and audit plan with the
    DoD Environmental Security office. We reviewed policies, procedures, and
    documentation related to budget preparation, submission, and program execution
    as well as volume data for hazardous waste disposal at the DoD organizations.
    We judgmentally selected the 20 Service and DLA organizations based on
    information regarding hazardous waste disposal costs and disposal volumes from
    the Defense Reutilization and Marketing Service Rapid Access to Information in
    DLA. Our review included documentation from CYs and FYs 1992 through
    1998.

    The audit was jointly conducted by the Inspector General, DoD, and the Army,
    Navy, and Air Force audit agencies. We relied on the work of the Service audit
    agencies at 15 of the 20 locations selected.

    Hazardous Waste Cost and Volume. Inspector General, DoD, Report
    No. 00-020, “Hazardous Waste Disposal Costs for the Defense Logistics
    Agency,” October 26, 1999, stated that the Inspector General, DoD, would
    include information from the Defense Reutilization and Marketing Service study
    showing hazardous waste cost and volume trends for the Services and DLA in the
    overall DoD report. However, we are not including the study in this report
    because we could not rely on the validity of the reported unit cost to dispose of
    hazardous waste. In addition, the study included only the hazardous waste that
    was disposed through Defense Reutilization and Marketing Service, not an overall
    hazardous waste disposal unit cost.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal and subordinate performance goal:

           FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the force
           by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (00-DoD-2)
           FY 2000 Subordinate Performance Goal 2.3: Streamline the DoD
           infrastructure by redesigning the Department’s support structure and
           pursuing business practice reforms. (00-DoD-2.3)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    established performance improvement reform objectives and goals. This report
    pertains to achievement of the following functional area objective and goal:



                                        8
           Environmental Functional Area. Objective: Implement pollution
           prevention programs throughout the DoD. Goal: By the end of Calendar
           Year 1999, reduce disposal of hazardous waste 50 percent from the 1992
           baseline (amount of hazardous waste disposal will be measured and
           reported in pounds). (ENV-3.2)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Infrastructure high-risk area.

    Use of Computer-Processed Data. To achieve the audit objectives, we
    extensively relied on computer-processed data contained in the Rapid Access to
    Information Database in DLA. Our review of the system and the results of tests
    showed discrepancies that casts doubt on the validity of the data. However, when
    the data are reviewed in context with other available evidence, we believe that the
    opinions, conclusions, and recommendations in the report are valid.

    Audit Type, Dates, and Standards. We performed this economy and efficiency
    audit from November 1998 through August 2000 in accordance with auditing
    standards issued by the Comptroller General of the United States as implemented
    by the Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD, and a non-Governmental organization, The Center for
    Naval Analyses. Further details are available on request.

Management Controls
    We identified material management control weaknesses in our audit.
    Management controls, including DoD level guidance, were not adequate to ensure
    that Army, Air Force, and DLA MoM data accurately reflected the progress
    towards meeting the established goals of reducing hazardous waste by CY 1999
    and that the hazardous waste disposal budget estimates were supportable.
    Recommendation 1, if implemented, will improve future MoM and budget
    submissions to accurately reflect hazardous waste disposal volumes and costs.
    Recommendations 2, 3, and 4, if implemented, will ensure that historical data can
    be verified for the new hazardous waste MoM. A copy of the report will be
    provided to the senior officials responsible for management controls in the Office
    of the Under Secretary of Defense for Acquisition, Technology, and Logistics, the
    Army, the Air Force, and Defense Logistics Agency.




                                         9
Appendix B. Prior Coverage
   Inspector General, DoD
   Inspector General, DoD, Report No. 00-020, “Hazardous Waste Disposal Costs
   for the Defense Logistics Agency,” October 26, 1999

   Inspector General, DoD, Report No. 97-118, “Evaluation of Environmental
   Measures of Merit,” April 7, 1997

   Army
   Army Audit Agency, Audit Report AA 00-110, “Hazardous Waste Disposal
   Volumes and Costs,” December 27, 1999
   Navy
   Naval Audit Service, Report 044-99, “Hazardous Waste Disposal Costs,”
   July 8, 1999

   Air Force
   Air Force Audit Agency, Project 99052021, “Hazardous Waste Disposal Budget
   Formulation,” June 25, 1999

   Air Force Audit Agency, Project 98052005, “Hazardous Waste Cost and Quantity
   Reduction,” November 25, 1998

   Other
   The Center for Naval Analyses (CNA), Report No. CRM 98-101, “Recent Trends
   in Navy Hazardous Waste Disposal,” September 1998




                                     10
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Environmental Security)
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget




                                          11
Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
 Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
 Committee on Government Reform




                                          12
Department of Army Comments




                    13
14
Department of Air Force Comments




                 15
Defense Logistics Agency Comments




                  16
Audit Team Members
   The Contract Management Directorate, Office of the Assistant Inspector General
   for Auditing, DoD, prepared this report.

     Paul J. Granetto
     Joseph P. Doyle
     Deborah L. Culp
     Brenda J. Pappas
